<html>
<title> - A THREAT TO AMERICA'S CHILDREN: THE TRUMP ADMINISTRATION'S PROPOSAL TO UNDERMINE PROTECTIONS FROM MERCURY AIR TOXICS STANDARDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                    A THREAT TO AMERICA'S CHILDREN:

                  THE TRUMP ADMINISTRATION'S PROPOSAL

                     TO UNDERMINE PROTECTIONS FROM

                      MERCURY AIR TOXICS STANDARDS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2020

                               __________

                           Serial No. 116-90

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



                  Available on: http://www.govinfo.gov
                           oversight.house.gov
                             docs.house.gov
                             
                             
                               ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
39-658 PDF              WASHINGTON : 2020                              
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
             Michael Castagnola, Professional Staff Member
                     Joshua Zucker, Assistant Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Rashida Tlaib, Michigan              James Comer, Kentucky, Ranking 
Raja Krishnamoorthi, Illinois            Minority Member
Jackie Speier, California            Paul A. Gosar, Arizona
Jimmy Gomez, California              Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota
                                     Fred Keller, Pennsylvania
                                     
                                     
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 6, 2020.................................     1

                               Witnesses

Ms. Heather McTeer Toney, National Field Director, Moms Clean Air 
  Force
Oral Statement...................................................     7
Ms. Katie Huffling, Executive Director, Alliance for Nurses for 
  Healthy Environments
Oral Statement...................................................     9
Ms. Mandy M. Gunasekara (Minority Witness), Founder, Energy 45, 
  Senior Fellow to Texas Public Policy Life: Powered Project
Oral Statement...................................................    11
Rev. Mitchell C. Hescox, President/CEO, Evangelical Environmental 
  Health Network
Oral Statement...................................................    13

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents listed below are available at: docs.house.gov.

  * Letter from Senators Alexander, Carper, Collins, Manchin, 
  Tillis, and Brown to Secretary Wheeler; submitted by Chairman 
  Rouda.

  * Press Release from Rep. Elise Stefanik Opposing Weakening of 
  MATS Rule; submitted by Chairman Rouda.

  * Letter from Rep. Rooney to EPA Administrator Wheeler; 
  submitted by Chairman Rouda.

  * Memo from Bob Murray, CEO of Murray Energy Corporation; 
  submitted by Chairman Rouda.

  * Opinion Piece from Senators Alexander and Carper; submitted 
  by Rep. Tlaib.

  * Letter from Power Industry Groups to Assistant Administrator 
  Wehrum, EPA; submitted by Rep. Tlaib.



                    A THREAT TO AMERICA'S CHILDREN:

                  THE TRUMP ADMINISTRATION'S PROPOSAL

                     TO UNDERMINE PROTECTIONS FROM

                      MERCURY AIR TOXICS STANDARDS

                              ----------                              


                       Thursday, February 6, 2020

                   House of Representatives
    Subcommittee on Civil Rights and Civil 
                                  Liberties
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:36 p.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
(chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Tlaib, Krishnamoorthi, 
Norton, Maloney (ex officio), Comer, Gosar, and Keller.
    Mr. Rouda. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for five minutes to give an opening 
statement.
    Good afternoon. This week, the Committee on Oversight and 
Reform has been holding a series of hearings to examine the 
Trump administration's senseless attacks on children through a 
system of regulatory actions that touch every corner of the 
executive branch.
    Today, as part of that series, the Subcommittee on 
Environment will examine the Trump administration's efforts to 
undermine the Mercury and Air Toxics Standards, also known at 
the MATS rule, by changing the calculation of the rule's 
benefits and concluding that it is no longer appropriate and 
necessary under the Clean Air Act.
    Our goal here today is to examine how the Environmental 
Protection Agency's efforts to undermine the MATS rule is yet 
another example of this administration's prioritizing the 
profits of corporate polluters over Americans' health and 
safety.
    And like so many of the Trump administration's rollbacks, 
this attempt to undermine the existing MATS rule comes with 
devastating, life-and-death consequences. I will not mince 
words here: The EPA's actions are a direct attack on the health 
and welfare of pregnant women, infants, and children.
    Coal-fired power plants are among the worst industrial 
polluters, and the MATS rule forces older, dirtier power plants 
to clean up their act. In addition to the billions of tons of 
carbon dioxide emitted by coal burning worldwide, these plants 
also accounted for half of the total manmade emissions of 
mercury in America and more than half of all arsenic, 
hydrochloric acid, hydrogen fluoride, and selenium emissions.
    Once the MATS rule was implemented in 2012, the owners of 
the worst emitting power plants had to make a decision: either 
shut down or install pollution-control equipment, such as 
scrubbers and large filters called baghouses.
    As a result of that rule, mercury pollution alone has 
decreased by 80 percent since its implementation. In fact, when 
the EPA updated the rule in 2015 following a Supreme Court 
ruling that rejected an attempt to weaken the rule, the Agency 
found that these safeguards helped prevent as many as 11,000 
premature deaths a year.
    Mercury, a toxic metal dangerous to all humans, is 
particularly perilous for the most vulnerable among us: infants 
and children. Children, babies, and fetuses are more vulnerable 
to the negative health impacts of mercury in fine particulate 
matter than any other populations. And they, therefore, benefit 
most from mercury and air toxins regulations.
    Mercury, particularly when converted in the environment to 
the organic form known as methyl mercury, is a neurotoxin, 
which means that it disrupts the central nervous system when 
ingested or absorbed through the skin, and can permanently 
damage children's brain development both before and after 
death.
    Accounting for these impacts should not and absolutely 
cannot be an afterthought. Taking steps to prevent unnecessary 
deaths and long-term illnesses must be fully considered when 
deciding the benefit of the current mercury rule.
    And you don't have to take my word for it. Several of my 
Republican colleagues, including Representatives Stefanik and 
Rooney and Senators Alexander, Collins, and Tillis, have voiced 
concerns regarding Administrator Wheeler's efforts to undermine 
the MATS rule and have urged the EPA to let the current MATS 
rule stand.
    I'd like to introduce letters from the Senators and 
Representative Rooney into the record. I'd also like to submit 
Representative Stefanik's press release on the issue into the 
record, without objection.
    Thank you.
    Mr. Rouda. In sum, we know the MATS rule saves lives. We 
know the current MATS rules protect our most vulnerable: our 
children, our unborn, and our pregnant moms.
    However, as witnesses here today will testify to, despite 
the proven health benefits of this rule, the EPA's own 
scientific advisory board's criticism of the Agency's efforts 
to undermine the current mercury rule and the significant 
bipartisan support from lawmakers across the political 
spectrum, faith groups, and industry leaders, the Trump 
administration is pushing forward with this attack on the 
health and well-being of our children.
    So, here is the life-and-death question: Why are we sitting 
here today talking about the administration's efforts to gut 
such a vital rule? The answer is simple but frightening: 
Because of the corrupt influence of a handful of coal companies 
over the Trump administration and the EPA is why we are here.
    Bob Murray, the former CEO of Murray Energy, and a few 
other coal operators have been working to reverse the current 
mercury rule. Mr. Murray, in addition to his previous position 
as the head of the country's largest coal-mining company, is 
also a longtime Trump supporter.
    He donated $300,000 to the President's inauguration and $1 
million to a pro-Trump political action committee. Then Mr. 
Murray cashed in his chips. He presented President Trump with a 
wish list of environmental rollbacks just weeks after his 
inauguration.
    Murray is continuing his influence campaign. Within the 
past six months, Mr. Murray has contributed almost $300,000 to 
the Republican National Committee.
    Since we are now in the third year of Trump's Presidency, 
it is not surprising to see that some of the top positions of 
the EPA are held by industry-friendly swamp creatures who are 
no strangers to advocating for lax standards and aggressive 
rollbacks of bedrock environmental protections.
    In fact, prior to his confirmation as Deputy EPA 
Administrator, Andrew Wheeler worked as a lobbyist whose best-
paying client was none other than Murray Energy. And just last 
week, it was announced that EPA Administrator Wheeler's chief 
of staff is leaving the Agency to help lead the National Mining 
Association, the Nation's top coal-mining trade group.
    So, given the prevalence of industry-led political 
contributions and a revolving door of lobbyists at the EPA, 
we're supposed to believe those who tell us that the coal 
industry is not influencing this decision?
    The Trump administration is willing to put more mercury in 
the bodies of children so that coal companies can profit, plain 
and simple. Instead of draining the swamp, President Trump has 
repeatedly helped prop up swamp monsters, prioritizing 
corporate lies and donors over truth and science.
    It seems like more than a coincidence that the White House 
and relevant Federal agencies have completed or are on track to 
fulfill most of the 16 requests detailed in Bob Murray's wish 
list.
    I'd like to introduce Bob Murray's memo into the record.
    Thank you.
    Mr. Rouda. Instead of protecting children, the Trump 
administration is fulfilling an industry's list of desires in 
exchange for corrupt contributions.
    It was Gandhi who said a nation's greatness is measured by 
how it treats its weakest members. By attempting to gut several 
regulations, including the MATS rule, the Trump administration 
is placing the most vulnerable among us in harm's way.
    In this situation, there are many clear losers and only one 
obvious winner: a handful of big coal companies. If the Trump 
administration's efforts to undermine the MATS rule are 
successful, more children will have trouble breathing, 
learning, and surviving; more children will die.
    Instead of prioritizing the bottom lines of donors and 
polluters, the Trump administration should deeply consider the 
impact of this devastating and corrupt action on current and 
future generations. These actions reveal a pattern of, at best, 
disregard for the well-being of America's most vulnerable 
children and, at worst, a calculated agenda to inflict 
suffering upon them in the effort to line the pockets of donors 
and corporate supporters.
    Thank you.
    And I now invite my colleague, the subcommittee's ranking 
member, Mr. Comer, to give a five-minute opening statement.
    Mr. Comer. Thank you, Chairman Rouda, and thank all the 
witnesses for being here today.
    We are here today for a hearing about the Trump 
administration's proposal to revise the supplemental cost 
finding for the Mercury and Air Toxics Standards, or MATS rule. 
I thank the witnesses again for their willingness to appear 
before this committee.
    The premise of today's hearing is to discuss a supposed 
threat posed by the Trump administration's actions regarding 
the MATS rule. I want to make one thing very clear: The 
proposed action by EPA regarding the reconsideration of the 
supplemental cost finding would not undermine environmental 
protections because it does not change the original 2012 MATS 
rule.
    The MATS rule was created to limit the amount of mercury 
and other air pollutants emitted from power plants. I think 
it's crucial to discuss where mercury comes from and how we're 
exposed to it.
    Mercury is released into our environment through two 
primary ways. The first way is through a naturally occurring 
process such as volcanic eruption, a forest fire, and the 
normal breakdown of minerals in soil and rocks. The second way 
that mercury can be released is by human action such as the 
burning of materials that contain mercury.
    When mercury is released in the atmosphere, it will 
eventually deposit into bodies of water. In water, 
microorganisms can change mercury into methyl mercury, which 
can accumulate in fish and shellfish. Exposure to mercury can 
take several different forms, but exposure to methyl mercury 
most often occurs through eating fish and shellfish. The 
Centers for Disease Control and Prevention states that nearly 
all human exposure in the United States is through fish and 
shellfish consumption.
    The MATS regulation was intended to reduce the amount of 
mercury created from human activity, specifically mercury 
emitted from coal-and oil-fired power plants.
    The MATS regulation has had a long and complex history 
across multiple administrations involving scientific studies, 
proposed rules, and final rules, in addition to cases before 
D.C. Circuit Court and even the U.S. Supreme Court.
    The Supreme Court decision in Michigan v. EPA determined 
that EPA must consider cost when determining whether this 
regulation was appropriate and necessary, which the Obama EPA 
failed to do.
    In December 2018, the Trump EPA issued a proposed 
rulemaking which revises the supplemental cost finding for the 
MATS rule to more accurately portray the cost-benefit 
determinations of this regulation.
    The proposed rule does not--and I repeat--does not remove 
the standard. It only proposes to remove the ``necessary and 
appropriate'' standard that justified the costs of MATS 
regulation by the co-benefits of regulating particulate matter, 
which, by the design of Congress, is regulated under a 
different section of the Clean Air Act.
    EPA's proposed reconsideration of the Obama-era 
supplemental finding is smart policy and necessary to comply 
with the Supreme Court's finding that a rule must be cost-
justified to be appropriate.
    I look forward to working with the majority to drive energy 
and environmental innovation in ways that are beneficial to 
everyone.
    I thank you again, Mr. Chairman, for holding this hearing 
and look forward to hearing from today's witnesses.
    I yield back.
    Mr. Rouda. Thank you, Ranking Member.
    The chair would now like to recognize the chairwoman of the 
full Committee on Oversight, the Honorable Chairwoman Maloney 
of New York, for an opening statement.
    Mrs. Maloney. Thank you.
    And good afternoon and thank you to all of you for coming. 
And as chair of the Committee on Oversight and Reform, I want 
to thank all of my colleagues here today but especially Harley 
Rouda, chair of the Subcommittee on Environment, for convening 
this hearing on the administration's effort to undermine 
protections from the Mercury Air Toxins Standards rule, known 
as the MATS rule.
    I commend him on his creative work to help preserve the 
environment, and I would say that the best rule is anything 
that undermines the health of our children or adds more mercury 
to the air is really unjustified and should be fought in any 
way, shape, or form.
    This is the last in a series of four hearings that we've 
had over the course of two days that have looked at the 
negative effects of the Trump administration's poverty, 
housing, hunger, and health regulations on children.
    The MATS rule protects our own health and our children's 
health, plain and simple. And you don't have to take my word 
for it. We can look to the Environmental Protection Agency's 
own statements to prove this. According to the EPA's own 
calculations, the MATS rule prevents up to 11,000 premature 
deaths, over 4,000 heart attacks, over 130,000 asthma attacks, 
and up to 540,000 missed work or sick days each year.
    So, you see there is no ambiguity here. We factually know 
that mercury and air pollutants are bad for human health. We 
also know that the administration's effort to gut Mercury Air 
Toxics Standards will harm children's health and will result in 
increased occurrences of childhood asthma and babies born with 
developmental disabilities.
    Any efforts to modify mercury standards should reduce--not 
increase, but reduce--environmental toxins and improve 
children's health and life outcomes. But the administration is 
proposing to do the exact opposite.
    What this series of hearings has uncovered is that this 
administration is engaging in an unforgivable attack on 
children which, as we have also seen in these hearings, is both 
unprecedented and systemic. It is our job in Congress to shine 
a spotlight on these regulations, and we will continue to do 
just that. I encourage my colleagues, both Democrats and 
Republicans, to work together in protecting our children's 
future.
    Again, I want to thank the subcommittee chairman for his 
really extraordinary and creative work in this Congress on 
environmental concerns to protect our children and all of us.
    I yield back, and I thank you very much.
    Mr. Rouda. Thank you, Chairwoman Maloney.
    Next, I'd like to recognize our vice chair, Representative 
Tlaib. But before I hand the mic over to her, I had the 
opportunity to go with Representative Tlaib to her district and 
saw firsthand her commitment to environmental justice for not 
just the people in her district but around our country and the 
world.
    So, with that, I'd yield to Representative Tlaib to speak 
more to the importance of clean air for all.
    Ms. Tlaib. Thank you so much, Chairman. I cannot thank you 
enough for going on a toxic tour within 13th congressional 
District.
    As some of the folks here know, in my district, something 
that is impacting our children is corporate polluters, one of 
them Marathon Petroleum. That's why I teamed up with our 
chairman, Chairman Rouda, and sent a letter today to the EPA 
requesting an investigation into Marathon's chemical release in 
Detroit and downriver communities of Melvindale, River Rouge, 
and Ecorse.
    We also sent one directly to Marathon's CEO requesting a 
list of all chemicals that leaked out and what measures they 
are taking to mitigate those outputs.
    I also want to note that my residents are the last to find 
out when these toxic releases happen. Marathon will contact the 
authorities. They actually will watch from our porches--that's 
how close the refinery is to our homes--and watch workers get 
evacuated. But the residents are home. That's where their 
children are, that's where they sleep, that's where they eat. 
And that is unacceptable.
    And so I want to thank the incredible leadership and 
courage of our chairman to stand up to corporate pollution. And 
no matter people's income background, no matter their ethnic 
background, the color of their skin, they all deserve to 
breathe clean air.
    And I really appreciate you standing with me and holding 
this company accountable.
    Mr. Rouda. Thank you, Vice Chair Tlaib. And thank you again 
for your leadership on this important topic.
    Now I want to welcome again our witnesses. We have Ms. 
Heather McTeer Toney, national field director, Moms Clean Air 
Force, with part of her army behind her, it appears; Ms. Katie 
Huffling, executive director, Alliance of Nurses for Healthy 
Environments; Mandy Gunasekara--am I close?
    Ms. Gunasekara. Close enough.
    Mr. Rouda. Gunasekara?
    Ms. Gunasekara. That's better.
    Mr. Rouda. OK--founder, Energy 45, senior fellow to Texas 
Public Policy Life: Powered Project; Reverend Mitchell Hescox--
--
    Rev. Hescox. Very good.
    Mr. Rouda [continuing]. Goes by Mitch--president, CEO, 
Evangelical Environmental Health Network.
    If the witnesses would please stand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you.
    Please let the record show that the witnesses answered in 
the affirmative.
    Thank you. And you've sat down. Keep in mind, the 
microphones are very sensitive, so make sure after your opening 
statement and when you answer a question that you turn it on 
and the microphone is close to you.
    Without objection, your written statement will be made a 
part of the record.
    With that, Ms. Toney, you are now recognized to give an 
oral presentation of your testimony.

  STATEMENT OF HEATHER MCTEER TONEY, NATIONAL FIELD DIRECTOR, 
                      MOMS CLEAN AIR FORCE

    Ms. Toney. Thank you, Chairman Rouda, Ranking Member Comer, 
and members of the subcommittee and Chairwoman Maloney of the 
Oversight and Reform Committee. Thank you for the opportunity 
to testify about this administration's efforts to undermine the 
U.S. Environmental Protection Agency's Mercury and Air Toxics 
Standards.
    My name is Heather McTeer Toney, and I serve as the 
national field director of Moms Clean Air Force. We are a 
community of over 1 million moms and dads committed and united 
against air pollution and climate change for the sake of our 
children's health.
    On May 21 of 2019, I testified before the House Committee 
on Energy and Commerce Subcommittee on Oversight and 
Investigations regarding dangers of undermining the current 
MATS rule. At that time, our organization was fully engaged in 
the fight to protect this important Federal standard that we 
know to be successful. We collected over 22,000 comments that 
were submitted and urged the Agency to rescind any discussion 
of weakening the standard.
    We met with OMB and advocated against this idea that the 
Obama Administration's calculation of the costs and benefits of 
the rule was limited, thereby creating an opening for the rule 
to no longer be considered appropriate and necessary. Their 
case was faulty and disingenuous at best then, and it remains 
so today.
    I can honestly say that while I'm happy to serve and be 
here today, like you, Mr. Chairman, I am baffled at the fact 
that we're still working to prevent our Federal Government from 
allowing industry to poison unborn babies' brains. At this very 
moment, the Trump administration's EPA is still engaged in a 
full-scale assault on the Mercury and Air Toxics Standard.
    And while they are extremely close to finalizing its 
proposal, I am grateful that we keep asking the question of why 
we should stop protecting our children. I believe it's at the 
very heart of why the late Congressman Cummings saw the need to 
have a series of hearings to talk about protecting children. He 
understood that the protection of children is the insurance 
that we hold for our collective future, and failure to do so is 
equivalent to refusing to pay the policy.
    The facts have not changed, and mothers know this. Coal-
burning power plants are the largest source of human-caused 
mercury emissions in the U.S., and mercury is harmful to the 
development of the brain. Everything we know about these 
pollutants shows that controlling them is not just appropriate 
but vital.
    We also know that the rule works as is. In 2018, the 
American Lung Association reported that the MATS rule achieved 
a 90-percent reduction in mercury emissions from power plants 
and cleaned up dangerous particle pollution at the same time.
    When the rule was adopted, it was estimated that it would 
not only prevent deaths and asthma attacks and hospital visits 
annually, but we now know that it has done so much more. It 
also has helped us protect ourselves against cancer, heart and 
lung ailments, neurological problems, and other severe 
environmental and public health impacts. This rule has given us 
protections that have exceeded expectations but is now being 
stripped from our communities unfairly.
    In addition, power plants have already made the necessary 
investments and adjustments to meet the standard, and it did 
not cost them as much as they thought it initially would.
    The utility sector understands that pollution control makes 
sense, which is why they urge the administration to forego any 
changes to the rule. Healthier air means their employees don't 
take time off work to tend to sick loved ones. It means we all 
benefit from the lower healthcare costs. It means that black 
and brown communities and indigenous people that sit on the 
front lines of these facilities are finally granted some of the 
forms of protections after years of living, quite literally, 
under a cloud of pollution.
    I previously shared the story of one of our moms, Nikki 
Katrice White from South Carolina. She sat before an EPA 
hearing panel and shared how her family was grateful for the 
sustainable income yet, at the same time, blissfully 
unsuspecting of the dangers that come with living alongside a 
coal-fired power plant. She shared how they didn't think twice 
when her mother gave birth to her only son and he was 
stillborn. And it didn't even dawn on her when their own 
children started to have respiratory issues when there was no 
family history or significance of risk factors.
    Ms. White's words were not just spoken on behalf of her and 
her two children but on behalf of the millions of kids around 
this country that live under a cloud of air pollution and 
dangerous, brain-damaging toxins that inhibit the lives and 
limit their potential.
    Or also those in the indigenous community: Great-
grandmother Mary Lyons of the Ojibwe Tribe, Rachel Heaton of 
the Muckleshoot Tribe, and Rachel Fernandez of Menominee 
Nation, who talk constantly about how EPA never consulted with 
the Tribes. Yet they live and they focus off of the fish that 
they honor, and are concerned about the contamination of the 
forest and the fish that they eat.
    So, what should be done? What can be done? To the current 
rule, it should be nothing. You'll hear repeatedly that the 
Obama Administration failed to calculate correctly the health 
benefits and costs, thereby allocating an unfair compliance to 
the utility sector.
    You will hear the words ``appropriate and necessary'' and 
that this rule does not meet the standard. But please 
understand, the criteria of ``appropriate and necessary'' is a 
legal yardstick under the Clean Air Act, and removing this 
status undermines the legal foundation of the rule, leaving it 
vulnerable to legal challenge.
    The creative math of this administration would like us to 
discount the particulate impacts because they call them 
duplicative. The particulate impacts are the most important and 
also the most expensive for good reason: They kill people.
    Furthermore, while EPA has continuously claimed that it's 
leaving the current standards for mercury emissions in place, 
they're taking steps consistent with changing or altering the 
rule. EPA specifically solicited comment on whether, if it were 
to finalize its proposed conclusion, then it has the authority 
or obligation to rescind the MATS rule. Again, the ability of a 
discount to particulates in MATS undermines every other Clean 
Air Act rule.
    In the words of my colleague and good friend Molly Rausch, 
it's as if MATS is a gateway drug and we're trying to convince 
teenagers not to travel down this dark path that will 
ultimately lead to their demise.
    I previously served as Regional Administrator for the 
Environmental Protection Agency's Southeast Region under 
President Obama and EPA Administrator Gina McCarthy. My job was 
not only to assist communities and industries in implementation 
of MATS but also to explain the importance of these protective 
measures, especially in vulnerable communities and communities 
of color.
    I'm also a former mayor of Greenville, Mississippi, and for 
two terms I served my hometown. I'm a wife, a mother of three, 
ages 24, 14, and 3, and new grandmother to two.
    If there is anything that I know, it is important for us to 
protect our children and our future. And rather than revisiting 
these life-saving standards, EPA should be strengthening them 
to reduce hazardous air pollutants further from these sources 
to protect the health of our families.
    In the event that this rule is finalized, it's incumbent 
upon this committee and this Congress to provide oversight and 
demand that EPA conduct the most stringent enforcement and 
accountability.
    As mothers, we're going to continue to call this action out 
for what it is: a direct threat to our children's health that 
is simply unacceptable.
    Thank you, Chairman.
    Mr. Rouda. Thank you, Ms. Toney.
    Ms. Huffling, you're now recognized for a five-minute 
opening statement.

 STATEMENT OF KATIE HUFFLING, EXECUTIVE DIRECTOR, ALLIANCE OF 
                NURSES FOR HEALTHY ENVIRONMENTS

    Ms. Huffling. Thank you. Thank you for the opportunity to 
provide testimony here today. My name is Katie Huffling, and 
I'm the executive director of the Alliance of Nurses for 
Healthy Environments. I'm also a nurse midwife. The alliance is 
the only national nursing organization focusing solely on the 
intersection of health and the environment.
    My work in environmental health began early in my midwifery 
career, when I recognized what an important component the 
environment is to having a healthy pregnancy and healthy 
babies. I now work with nurses and nursing organizations around 
the country and globally to address the health impacts caused 
by environmental exposures.
    As nurses, we strongly oppose any efforts to undermine the 
Mercury Air Toxics Standards due to the significant health 
benefits afforded by this rule.
    A core part of nursing practice is working to prevent 
disease. We work every day to help our patients stay healthy. 
We'd be happy just to see you once a year for your annual 
wellness visit rather than taking care of your child in the 
emergency room because they're struggling to breathe with an 
asthma attack.
    With the MATS rule, there's been an amazing opportunity to 
prevent disease and even death, and it's working. In fact, it's 
been so successful that it's reduced mercury emissions from 
coal-fired power plants by 81 percent since 2011.
    Mercury is a potent neurotoxin, causing permanent damage to 
the brains of the babies and developing fetuses, leading to 
developmental delays, learning disabilities, and birth defects. 
Since MATS was finalized, the estimated number of children born 
in the U.S. each year with prenatal exposure to methyl mercury 
levels that exceed the EPA reference dose has decreased by 
half, from between 200,000 to 400,000 down to 100,000 to 
200,000 exposed.
    This is huge. This means we have half as many children who 
will have reduced potential for productivity, achievement, and 
well-being for their entire lives because they were spared 
toxic mercury exposure.
    Coal-fired power plants don't just pollute our environment 
with mercury; air pollution from these plants contains more 
than 80 hazardous air pollutants identified by the Clean Air 
Act for control, including arsenic, chromium, lead, dioxins and 
furans, as well as particulate matter and sulfur dioxide.
    Air pollution from coal plants causes respiratory problems 
like asthma, stunted lung development, and sudden infant death 
syndrome. Air pollution has also been linked to effects on 
cognition and behavior in children and to the risk of childhood 
autism.
    The impacts on families related to these illnesses can be 
immense. Besides the pain, suffering, and emotional toll caused 
by poor health, there are significant economic costs, with days 
lost from school that can impede a child's ability to reach 
their full potential and days lost from work which, for a low-
income family already struggling to pay their rent, can be 
disastrous.
    Air pollution is also linked to poor pregnancy outcomes. 
Exposure to particulate matter during pregnancy is linked to 
both low birth weight and pre-term birth. These birth outcomes 
can lead to a variety of negative health impacts, greater risk 
of chronic disease as an adult, and can be incredibly costly. A 
pre-term infant's hospital stay is, on average, 10 times more 
costly than a normal birth.
    People who have low incomes or are members of racial or 
ethnic minorities bear a disproportionate burden of the health 
effects of air pollution. Because they're more likely to live 
closer to industrial facilities and high-traffic areas, low-
income and minority populations are at a much higher risk of 
exposure to the most harmful pollutants.
    Despite the proven health benefits of the MATS rule, in 
2018, the Environmental Protection Agency announced that it 
would be revising the supplemental cost finding, stating that 
the significant health benefits and lives saved from reduced 
emissions of fine particulate matter should not be counted.
    Counting co-benefits is just common sense because it gives 
the full picture of the benefits of an EPA action. In fact, 
both the EPA and the White House Office of Management and 
Budget have long established guidance that agencies should and 
do consider co-benefits in their analyses.
    The standards not only save lives; they also save up to $90 
billion every year in avoided costs associated with these 
health impacts. Based on EPA estimates, for every dollar spent 
to reduce this pollution, Americans get $3 to $9 in benefits. 
These benefits are real to babies, children, and families. 
Ignoring these significant health benefits makes no sense from 
a nursing perspective, but that's exactly what EPA's proposal 
wants to do.
    As someone who is trained to care for pregnant women and 
babies, I know firsthand that preventing exposure to harmful 
pollutants is one of the most important things we can do to 
safeguard the well-being of babies and children. Weakening the 
Mercury Air Toxics Standards threatens the health of all 
Americans and goes against the mission of the EPA to protect 
public health and the environment.
    Undermining the rule in any way is an unconscionable step 
backward in the efforts to prevent disease and one that nurses 
strongly oppose.
    Thank you.
    Mr. Rouda. Thank you, Ms. Huffling.
    Ms. Gunasekara, you're now recognized for five minutes.

   STATEMENT OF MANDY GUNASEKARA, FOUNDER, ENERGY 45, SENIOR 
      FELLOW TO TEXAS PUBLIC POLICY LIFE: POWERED PROJECT

    Ms. Gunasekara. Thank you, Chairman Rouda, Ranking Member 
Comer, and members of the subcommittee. Thank you very much for 
the opportunity to testify today on this important issue.
    My name is Mandy Gunasekara, and I am the founder of Energy 
45, a nonprofit based in Jackson, Mississippi. The mission of 
Energy 45 is to inform the public of the energy, environmental, 
and economic gains made under the Trump administration.
    I'm a senior fellow of the Texas Public Policy Foundation's 
Life: Powered Project, which is dedicated to promoting economic 
freedom and advancing the human condition. I'm also a visiting 
fellow at the Independent Women's Forum, which works to engage 
and inform women on policies that enhance their freedom, 
choices, and opportunities. Finally, I volunteer on a range of 
boards and caucuses whose goal is to enhance the discussion and 
thought regarding today's leading environmental issues.
    Prior to starting Energy 45, I served President Trump as 
the Principal Deputy Assistant Administrator in the Office of 
Air and Radiation at the U.S. Environmental Protection Agency. 
I previously served as majority counsel on the Senate 
Environment and Public Works Committee as well as in the U.S. 
House of Representatives for Congressman Bob Latta.
    Children's health is an extremely important issue. Beyond 
my public policy interests, I'm a mother of two young children, 
so this hearing addresses an issue that's especially personal. 
I'm thankful they're growing up in a Nation that celebrates the 
environment and in which our leaders strive to improve our 
world-leading status in clean air, clean water, and cleaning up 
contaminated lands.
    This administration has taken a number of actions to 
improve children's health, including releasing information on 
successes and opportunities. This October, EPA released a 
comprehensive update, the first in a number of years, to its 
report on ``America's Children and the Environment.'' This 
report shows that great progress has been made in protecting 
children from environmental harms, including reduced exposure 
to criteria pollutants and improved access to cleaner water. 
And these trends will continue under the Trump administration's 
regulatory agenda.
    There is much to celebrate, which is a testament to the 
talented engineers, scientists, economists, and experts at the 
Agency, many of whom I work personally with, and those who work 
hard every day to fulfill the mission of protecting public 
health and the environment for our children.
    There's also a clear recognition that more progress can be 
made. Under the Trump administration's leadership, a range of 
rules and initiatives have been developed to secure and expand 
the success of this mission. A few examples include the new 
Lead and Copper Rule that would require daycares and elementary 
schools to sample for lead, as well as the Healthy Schools 
Initiative, for which they're attempting to get additional 
funding.
    Children's health and the continuation of important 
programs are issues that warrant an earnest conversation. I no 
longer work for the Agency, but I have no doubt that if any of 
the members of this committee or the stakeholders represented 
on this panel were to request a conversation with EPA to figure 
out ways the Agency can complement the ongoing work of the 
committee, EPA would jump at the opportunity.
    But turning to one of specific topics of today's hearing, 
the proposed revisions to the existing MATS standard would not 
threaten in any way the Nation's ongoing progress in improving 
children's health. That's because the proposal would not change 
the standard in any form, which is explicitly stated on the 
first page of the Federal Register notice.
    And I quote: ``EPA further proposes that finalizing this 
new response to the Michigan v. EPA will not remove the Coal-
and Oil-Fired EGU source category from the Clean Air Act 
section 112(c) list of sources that must be regulated under 
Clean Air Act section 112(d) and will not affect the existing 
Clean Air Act section 112(d) emission standards that regulate 
hazardous air pollutant emissions from coal-and oil-fired 
EGUs.''
    So, in other words, the proposed MATS revision has nothing 
to do with changing mercury protections. Those suggesting that 
is does either have not read the rule or are purposefully 
acting in a disingenuous manner.
    The proposed MATS revisions aim to fix a dishonest 
accounting mechanism the last administration used that had the 
effect of justifying any regulatory action regardless of cost. 
Such an approach flies in the face of section 112 of the Clean 
Air Act and is wholly inconsistent with the Supreme Court's 
decision in Michigan that remanded the 2012 rule back to the 
Agency.
    Recall in that decision the Court found the Obama 
Administration's ``appropriate and necessary'' finding 
underlying the 2012 rule to be fundamentally flawed because EPA 
failed to consider costs in making that finding. The Court 
specifically observed that it is not rational, never mind 
appropriate, to impose billions of dollars in economic costs in 
return for a few dollars in health or environmental benefits.
    Prior to the February 2019 proposal, the MATS rule was an 
egregious example of the previous administration's use of co-
benefits to justify otherwise-unjustifiable regulatory actions. 
Their disregard for cost was deemed inappropriate by the 
Supreme Court.
    This administration's proposal is not in any way about 
weakening existing protections, but, rather, fulfilling a legal 
obligation to properly respond to the Supreme Court through a 
process guided by science and the facts. If finalized, EPA's 
rule would establish an accounting process that properly 
addresses co-benefits, ensures future rulemakings are 
effective, and holds true to the Clean Air Act's carefully 
crafted measure of balance.
    Thank you, and I look forward to your questions.
    Mr. Rouda. Thank you.
    Reverend Hescox, you're recognized for five minutes of 
testimony.

    STATEMENT OF REVEREND MITCH HESCOX, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, EVANGELICAL ENVIRONMENTAL HEALTH NETWORK

    Rev. Hescox. Thank you, Chair, Ranking Member. I am the 
Reverend Mitch Hescox, president of the Evangelical 
Environmental Network. I'm also a board member of the National 
Association of Evangelicals. And I've been appointed to be a 
member of the Clean Air Act Advisory Committee by this current 
administration.
    ``We're here for a very simple reason: defend the right of 
every child, born and unborn, to fulfill their God-given 
potential.'' That quotation came from President Trump at the 
March for Life last week.
    While many in our community applaud the President's actions 
in certain areas of being pro-life, his administration's effort 
to eliminate over 95 environmental standards questions the 
sincerity of his commitment to be completely pro-life. If 
President Trump truly wanted to defend the right of every 
child, born and unborn, to fulfill their God-given potential, 
then his actions must speak louder than his words, including 
the protecting of unborn children from mercury pollution.
    The President's record of destroying environmental health 
rules threatens every child's right to fulfill their God-given 
potential, what Jesus calls abundant life. Jesus was not just 
referring to a spiritual connection but to a holistic 
understanding of well-being, of body and soul together. Jesus 
was especially concerned about vulnerable populations being 
denied abundant life. And our commitment to Jesus Christ 
compels us to do all that we can to protect unborn children 
from mercury poisoning.
    In keeping with our commitment to the sanctity of life, 
over 145,000 pro-life Christians supplied comments last year 
against rolling back the MATS standard. In addition, over 120 
evangelical leaders sent that message, which I hand-delivered, 
to Acting Administrator Wheeler on December 4, 2008.
    Before MATS, one in six children were born with threatening 
levels of mercury and brain damage. Mercury causes all sorts of 
adverse health effects, which you've heard from the other 
people and I'm not going to repeat here today. Mercury is 
emitted from coal-fired power plants and is deposited back into 
the Earth. It concentrates in fish in numbers that are 10 to 
100 million times greater than the concentrations in water.
    And one thing I'd like to point out to the committee: When 
it comes to the health of children, they're not little adults. 
Their developing bodies leave them more vulnerable. And the 
most at risk are unborn children and newly born.
    And the good news--and you've heard it today--is that MATS 
works. Mercury pollution is lower. The compliance costs are 
down. Women have less mercury. Children have lower mercury 
levels.
    But the work isn't finished. Mercury fish consumption 
advisories remain in all 50 states, and still at least 200,000 
children remain neurologically impacted each year from mercury.
    So, why is this happening? Why is MATS under challenge? The 
Trump administration's MATS proposal would reverse EPA's 
finding that it's appropriate and necessary to regulate 
mercury. EPA Administrator Wheeler knows that removing the 
``appropriate and necessary'' finding opens the door for energy 
developers to pursue lawsuits that overturn the standards while 
he can sit there and, in my opinion, play Pontius Pilate and 
say that he's not overturning mercury but the courts did.
    But even more that, the most damaging element is that the 
proposed changes would exclude co-benefits and ancillary 
benefits. This contradicts the guidelines we heard about that 
the George W. administration did. And it makes little sense, as 
we've also heard, to remove certain benefits just because of 
how they're labeled. A baby's lungs don't know where PM2.5 came 
from and what took it out, but they need to benefit from it.
    Changing the co-benefit standard is what I believe this 
entire underhanded process represents. And a member in a 
meeting on December 4 with Acting Administrator Wheeler, at the 
time, he alluded to this by saying that we should have separate 
standards for different things. But even keeping with his 
underhandedness, I would really big to differ with the person 
who preceded me.
    An oft-repeated untruth in the justification of a MATS rule 
is that the Supreme Court required it. Bill Wehrum told me that 
at a Clean Air Act Advisory Committee meeting on September 28. 
On that December 4 meeting, Acting Administrator Wheeler said 
the same thing. He did the same thing in the newspapers, and he 
even did it at his EPW confirmation hearing.
    But here's the truth: The U.S. Court of Appeals for the 
D.C. Circuit upheld MATS in its entirety, including the 
``appropriate and necessary'' finding. The Supreme Court ruled 
that EPA had erred in not considering costs in making the 
``appropriate and necessary'' finding. Instead, what the 
majority expressed was that it left EPA to determine how to 
take account of costs and make the comparison to benefits.
    Then the D.C. Circuit Court, without staying MATS, remanded 
the ``appropriate and necessary'' finding to the EPA for 
reconsideration of the costs. The EPA new cost accounting was 
issued in a supplemental finding in April 2016. No further 
legal action was required.
    The MATS revision is categorically not to fulfill a request 
from the Supreme Court but to try to establish a new precedent 
for not counting co-benefits. And removing the ``appropriate 
and necessary'' finding, it would cause havoc.
    I have been working on this rule for over 10 years. You can 
tell that I'm very passionate about it because I love unborn 
children. And I know my time has expired, so I will end there. 
But know that this action is a moral tragedy, that the people 
of the United States, no matter your faith, no matter your 
beliefs, if you love a child or a grandchild, we cannot allow 
this to happen.
    Mr. Rouda. Thank you.
    And thank you to all the witnesses for your testimony.
    The chair now recognizes myself for five minutes of 
questioning.
    Ms. Gunasekara, you are the head of Energy 45 Fund?
    Ms. Gunasekara. Yes.
    Mr. Rouda. Do you receive a salary?
    Ms. Gunasekara. Yes.
    Mr. Rouda. So, you're not doing this gratuitously; you're 
paid to do this job, correct?
    Yes. You receive a salary.
    Ms. Gunasekara. No one is paying me to come testify today 
specifically.
    Mr. Rouda. But you receive a salary. And your money comes 
from where? How is the fund funded?
    Ms. Gunasekara. It comes from a number of Americans, some 
large entities, and a lot of individual small-dollar donors 
that believe in my message and believe in this administration's 
approach to regulating----
    Mr. Rouda. So, you've got contributions coming from 
companies that are for-profit as well as executives and 
individuals with ties to the fossil-fuel industry and the coal 
industry. Is that true?
    Ms. Gunasekara. Again, my donations come from Americans 
that believe in my message and they believe in my ability to--
--
    Mr. Rouda. Are you disagreeing with what I said, or is it 
possible that you're receiving contributions from coal 
companies and executives with coal companies? Yes or no? You 
simply know the answer. Yes or no, do you?
    Ms. Gunasekara. Again, I get donations from Americans that 
support Energy 45's mission and my ability to----
    Mr. Rouda. We'll take that as a ``yes,'' because obviously 
you don't want to answer the direct question that you do take 
funding directly from coal companies and coal executives.
    You testified that the MATS rule that currently is in place 
is based on some action that previous administrations took that 
was false evidence. So, is your testimony today that revoking 
the MATS rule would have no health consequences on anybody 
whatsoever?
    Ms. Gunasekara. No. My testimony today is that that is not 
what this administration is proposing. This administration is 
not proposing to revoke the standard. In fact, they're 
proposing to uphold the standard.
    What they are proposing to do is to correct a dishonest 
accounting metric that would----
    Mr. Rouda. So, that change in the MATS rule that you think 
the Trump administration is proposing has zero impact on health 
implications for children and infants across America. Is that 
your testimony?
    Ms. Gunasekara. Absolutely, in the context of MATS. And I'm 
not only saying it today; it is----
    Mr. Rouda. Thank you. I appreciate that because I wanted to 
understand----
    Ms. Gunasekara [continuing]. Explicitly covered in the 
Federal Register notice.
    Mr. Rouda. I just wanted to make sure I understood that you 
are saying that the Trump administration's proposed change to 
the EPA will have zero effect on the health of Americans and 
their children and their infants.
    Ms. Gunasekara. Again----
    Mr. Rouda. You know, we've clearly seen----
    Ms. Gunasekara [continuing]. Not changing the regulatory--
--
    Mr. Rouda. Excuse me. Clearly we have seen, with what has 
been given to this administration through the coal industry and 
executives, that the President of the United States does not 
need to look to Ukraine for corruption; he simply needs to look 
at his own administration, because we're seeing it firsthand.
    Reverend Hexton----
    Rev. Hescox. Hescox. That's okay.
    Mr. Rouda. Sorry. Hescox. I apologize. Have we ever seen an 
EPA honor a wish list by an executive of a coal company and try 
and implement that wish list as law?
    Rev. Hescox. Not in my knowledge.
    And what's even more infuriating to me is that on that wish 
list and copied on it and helping to arrange the meeting with 
Secretary Perry was the now current director, or Administrator, 
of the EPA, Andrew Wheeler, when he was at his old law firm, 
which is extremely troubling to me, that he's engaged in a 
process that he actually lobbied upon. And I find that a very 
troubling conflict of interest, personally.
    Mr. Rouda. And, Ms. Toney, I'm understanding this, that 
when we look at the rule and the rollback that the Trump 
administration is trying to do, is based in part by eliminating 
the review of co-benefits. Can you explain a little bit more 
for us as to why co-benefits should be included?
    Ms. Toney. Absolutely. Thank you, Mr. Chairman.
    You need to look at the co-benefits because that has a 
direct implication into the particulates. The particulates is 
the count that we look at because that is what is harmful to 
human beings, it's what kills people. And when there's a 
removal of this from MATS, then it's a removal that undermines 
the entire Clean Air Act standard. So, taking it out of one 
piece takes it out of all. And it allows and opens the door for 
litigation, as Reverend Hescox said.
    Mr. Rouda. So, just put it into layman's terms here. If we 
looked at cigarettes and only looked at one carcinogen and 
didn't look at nicotine and tar, and made our judgment based on 
just one small chemical aspect of tobacco, that's kind of what 
we're doing here, instead of looking at the overall effects of 
nicotine in cigarettes on the individual.
    Ms. Toney. Absolutely. If we did that, my children would 
still be watching cartoons with people smoking.
    Mr. Rouda. Exactly.
    Ms. Toney. Thankfully we don't.
    Mr. Rouda. I just have a few more seconds here. Ms. 
Huffling, I'm going to go to you. Is there anything you've 
heard that you would like to weigh in on before I yield my 
time?
    Ms. Huffling. One thing that I would say about the co-
benefits around the financial aspects that they're looking at 
from mercury pollution, since 2011 we've had an increase in the 
research around mercury, and the local mercury concentrations 
are much higher than we thought. You have many more people 
being contaminated close to coal-fired power plants. And so the 
calculations in the MATS rule right now are actually way too 
small.
    Mr. Rouda. OK. Thank you very much.
    I yield back. And, at this time, the chair recognizes 
Representative Keller for five minutes of questioning.
    Mr. Keller. Thank you, Mr. Chairman.
    Ms. Gunasekara, I'm not going to attack you for how you 
earn your money, or anybody else on the panel, because I think 
that's very unfair. We're here to get to an issue on a ruling 
and on what--people want to get down to the facts, not attack 
people personally on how or who pays their salary and question 
motives of why you're here. I believe everybody's here to make 
sure we get to the bottom of the issues on these things.
    So, I want to focus on that, Ms. Gunasekara. And could you 
talk about the progress that the Trump administration has made 
in increasing environmental protections while also growing the 
economy?
    Ms. Gunasekara. Certainly. We are experiencing 
unprecedented economic growth. And a lot of this is in the 
context of the blue-collar boom. And under President Trump and 
his deregulatory agenda, we've created millions of jobs. Twelve 
thousand new factories have come on board. You've seen the 
lowest unemployment rate for women, minorities, and for 
veterans. There's a lot of really good things going on in the 
context of the economy.
    And it's important to understand, people who get a job, we 
talk about it in terms of numbers, but a job is access to a 
better way of life. I've seen this happen personally to friends 
who have gone through that process. And when they get a new 
job, it's not only a better way of life for them, their 
children, and their surrounding community.
    And the best part about all this economic success in the 
Trump administration is that it's been done without sacrificing 
the environmental progress we have made. We have the cleanest 
air on record. We are No. 1 in access to clean drinking water. 
We have deleted more Superfund sites from being listed as 
Superfund sites, which in practical applications means that 
areas that were once closed for economic productivity have now 
been opened up, which is life-changing for communities that 
have been riddled by a Superfund designation, and they're 
changing that.
    And so this administration has effectively balanced robust 
economic growth alongside the continued progress of meeting 
environmental protections.
    Mr. Keller. Thank you.
    And I know you talked about a lot of things broadly as far 
as how things have been helped by the economic success, growing 
our economy and so forth. Could you give any examples of how 
the administration's policies have specifically helped 
children?
    Ms. Gunasekara. Yes, certainly.
    Mr. Keller. Or children's health, I guess I would say.
    Ms. Gunasekara. Yes. One of the biggest programs--and it's 
come up in a number of references--is the National Ambient Air 
Quality Standards program. And one of the things we first did 
under the Back to Basics agenda was home in and make the 
designation process, one, occur in a timely manner, something 
that's never been done before, and then, two, done in a way 
where we gave the states, the ones who were primarily 
responsible for implementing it, the tools that they needed to 
implement the health-based standards for ozone, in this 
particular instance--made sure they had the tools to do that in 
a meaningful way.
    And they've done that. And because of the credible 
implementation of it, you're seeing a reduction in exposure to 
a number of criteria pollutants, including ozone and 
particulate matter and others, by our Nation's children.
    You know, another one I mentioned in my opening statement 
was the new Lead and Copper Rule. There are new requirements to 
ensure that daycares and elementary schools test for the 
presence of lead and copper in the surrounding areas to ensure 
that children in any community are not exposed to unhealthy 
levels.
    And then the last thing I mentioned, too, in my opening 
statement was the Healthy Schools Initiative. That's important 
because it homes in on making sure that children that reside in 
disadvantaged communities are not denied access to a safe and 
healthy environment to learn.
    So, those are just a few of the examples of regulatory 
actions and programs this administration has been supporting 
and revamping in ways that will substantially improve the 
health and well-being of the children who live in those areas.
    Mr. Keller. Thank you. I appreciate that.
    And I yield back.
    Ms. Tlaib.
    [Presiding.] Now I'd recognize Representative Norton for 
five minutes.
    Ms. Norton. Thank you, Madam Chair.
    And I would like to enter into the record a copy of the 
following documents: a copy of Senators Alexander and Carper's 
opinion piece and a copy of a letter sent by the power industry 
groups.
    Ms. Tlaib. So, moved, without objection.
    Ms. Norton. This is a very unusual hearing. In this very 
polarized environment today, I've just entered into the record 
a Democratic Senator and a Republican Senator's op-ed. It's 
entitled ``Don't Stop the Fight Against Mercury Pollution: 
Republican and Democrat to Trump EPA.''
    These gains have been made over the past decade to protect 
children and families from dangerous mercury pollution. 
Reverend Hescox, in this kind of polarized political 
environment, why do you think Senators from different parties--
and I will give examples from others--from different policies 
that don't agree on much, agree on this mercury rule?
    Rev. Hescox. Well, I think it's the same way that former 
EPA Administrator Gina McCarthy and I agree upon it. We also 
wrote an op-ed together. Because I think we're an example and 
they're an example of what truly should happen in this town.
    When people are going to have differences--Gina McCarthy 
and I have fundamental differences on very many things. But the 
one thing we strongly agree upon is the need to protect 
children's health from environmental pollution. And I think 
that's what the Senators saw too, is that we need to protect 
our children.
    And, yes, there's a time to have different policies and 
different things to talk about, but there also is a time to 
come together as a country. And I think that the work between 
Senator Carper and Lamar Alexander, Congressman Rooney here in 
the House, myself and Gina show that work can be done when 
people will really work together. And I think this is one 
particular thing that shows it.
    And, unfortunately, this issue here--I mean, I'm a lifelong 
Republican. I've--how can--you know, it just comes to mind, and 
which makes things so frustrating, is there's an old saying 
that figures don't lie but liars can figure. This new proposal 
uses the same mercury costs as the original rule of a few 
million dollars, when the science clearly shows billions of 
dollars of----
    Ms. Norton. Reverend Hescox, was there bipartisan support 
when the MATS rule was first promulgated----
    Rev. Hescox. Yes, it was.
    Ms. Norton [continuing]. In 2012? So, I mean, this has been 
consistent.
    Then we come to industry. Now, if you would expect 
opposition from any part--and this really, it seems to me, is 
important to note, because industry has already incurred costs 
for capital investments they've already made. And they could 
say, fine, let's stop it now. But they're urging the EPA to 
leave the underlying MATS rule in place.
    Ms. McTeer Toney and Reverend Hescox, both of you, why do 
you think the industry is agreeing with bipartisan Members of 
the House and Senate about maintaining this rule?
    Ms. Toney. Yes, ma'am. Because it makes sense. It makes 
economic sense for their organization, and it makes sense for 
the communities in which they live.
    You're absolutely right. They sent a letter to Mr. Wehrum 
to state that they were in complete and total agreement with 
not doing anything to this rule. They had already invested, per 
their numbers, $18 billion and that the rule was successful and 
they wanted to keep it like this.
    This is one of the rare instances where we have found that 
not only industry, the utility sector, but also health 
professionals, communities, mothers, and bipartisan efforts 
have all come together----
    Ms. Norton. So, where is the opposition coming from? So 
far, I can't find the vested interest----
    Rev. Hescox. Well, can I add one thought to that to make 
sure, before we run out of time, is that utilities recognize 
that by the removal of the ``necessary and appropriate'' 
standing, that essentially puts the law and their investment in 
legal jeopardy----
    Ms. Norton. Yes.
    Rev. Hescox.--because----
    Ms. Norton. I want to know, where is the opposition--let's 
call it out--where is the opposition coming from? If we have 
such agreement, so unusual in this Congress, where is the 
opposition coming from?
    Ms. Toney. There was an argument that was made--a legal 
argument came from Murray Energy that the standards themselves 
were invalid because the regulation was not appropriate and 
necessary, and thereby putting this entire standard now in 
jeopardy. That is one place that we know it has come from.
    Ms. Norton. My time has expired. So, has my patience.
    Ms. Tlaib. Now I recognize our minority ranking member, 
Congressman Comer.
    Mr. Comer. Well, thank you.
    And before I begin my questions, I have to say this. This 
subcommittee is--members on the other side make a lot of very 
negative comments about coal. And I represent western Kentucky, 
a huge coal-producing districts. It's one of the biggest 
industries still today in my congressional district.
    I've never received a donation from Bob Murray. I've never 
received a donation from the NRCC. But I support the coal 
industry. And I think that, if you look at the coal industry, 
much like other essential industries in America, whether it be 
the agriculture industry, which is the industry I'm involved 
in--I'm a farmer--or the chemical industry or other industries 
in America, they've come a long way in trying to improve.
    If you look at the coal-fired plants in Kentucky, they have 
scrubbers on there. They've gone to great lengths and great 
expenses in research and development as well as in technology 
to reduce their carbon footprint and to provide clean coal.
    And I think that it's important to note that instead of 
just hearing one version of an industry that I doubt very many 
people criticizing it today on the other side of the aisle know 
much about.
    So, having said that, I want my questions to be centered 
around the subject of co-benefits with respect to regulations 
such as particulate matter.
    And, Ms. Gunasekara--I know I mispronounced that, but I try 
real hard, you know.
    Ms. Gunasekara. Yes.
    Mr. Comer. My questions are for you. First of all, can you 
discuss your concerns with heavy reliance on co-benefits to 
justify the MATS rule?
    Ms. Gunasekara. Certainly. It sets up an analysis to where 
any regulatory action, regardless of cost and regardless of 
other consequences, can be justified. And that's just not how 
the cost assessment was set up in the Clean Air Act but 
especially under section 112.
    And it's important to understand this was carefully crafted 
by this body. Congress came up with the best way to balance the 
benefits with the cost. Because to engage in an industrial 
process, it has some element of pollution, but we in this 
country have embraced engineering advances and found ways to do 
that in a much cleaner way. And it's a long-term process and 
something that is explicitly laid out in section 112.
    So, the over-reliance on benefits--and just to put context 
on that, in this instance you were talking about a cost of $7 
billion to $9 billion, whereas the benefits affiliated with the 
reduction of the targeted pollutant, which was mercury, was $4 
million to $6 million. And that's the thing that's often not 
discussed as much, is the disparity in that.
    And so, under section 112 and the way that the last 
administration relied on that for justifying its relative 
actions, totally flies in the face of the statute and 
especially after the Michigan decision from the Supreme Court.
    Mr. Comer. So, do you think it's a bit premature for this 
committee to be discussing this proposed supplemental cost 
finding, as it's not even final yet?
    Ms. Gunasekara. I do think it's an important point to point 
out that it is still going through the regulatory process. And 
the way that it works is EPA and other agencies, they put out a 
proposed rule, and they ask a lot of questions, because they 
need answers and they need help from the experts out in the 
general public. So, they've gathered that; they've received 
thousands of comments on this.
    And important to note, too: Whenever that final rule does 
come out, what comes along with it is a response to those 
comments. So, EPA will go through and look at every single 
comment, every single issue, every single piece of additional 
data or other important information and respond to it in a 
proactive way.
    Mr. Comer. OK.
    Last question. Can you discuss how the Obama EPA double-
counted particulate matter reductions that have already been 
captured by other rules? And why is this a dangerous precedent?
    Ms. Gunasekara. Yes, absolutely.
    You know, the Agency didn't say this; I would say this, 
that under section 112 they're precluded from considering co-
benefits, especially criteria pollutants, because they're 
regulated in another section of the Clean Air Act.
    But in this specific context, under section 112--you have 
to understand that the Agency doesn't regulate in a vacuum. 
There's all other sorts of programs, like the National Ambient 
Air Quality Standards program, the New Source Review, which is 
especially pertinent in permitting applications, as well as 
section 111, which sets new source and existing source 
standards. And there's many manner of programs that go about 
regulating many manner of pollutants.
    And so it doesn't make sense under section 112, where 
you're supposed to look at what is the residual impact of 
pollutants after considering the implementation and 
effectiveness of the rest of the Clean Air Act, what would be 
justified from the Agency's perspective in terms of going about 
and trying to reduce.
    Mr. Comer. Well, thank you very much.
    I yield back.
    Ms. Tlaib. Thank you.
    Just a--I recognize myself for five minutes.
    Yes or no, the Trump administration's proposing to 
undermine a rule that helped reduce mercury emissions by 80 
percent? Yes or no?
    Ms. Toney. Forgive me. Maybe I don't understand.
    Ms. Tlaib. So, the current rule, as it is, reduced 
emissions by 80 percent. Yes or no? It's working.
    Rev. Hescox. Yes, it works.
    Ms. Toney. Yes, it works.
    Ms. Tlaib. How about you?
    Ms. Gunasekara. Yes. And----
    Ms. Tlaib. Great.
    Ms. Gunasekara [continuing]. The Agency is not----
    Ms. Tlaib. Nope, that's it. Reclaiming my time.
    Ms. Gunasekara [continuing]. To undermine it----
    Ms. Tlaib. Reclaiming my time.
    Do you think this is about corporate greed?
    Ms. Toney?
    Ms. Toney. Yes.
    Ms. Tlaib. Ms. Huffling?
    Ms. Huffling. Yes.
    Ms. Tlaib. How about you?
    Ms. Gunasekara. No.
    Ms. Tlaib. OK.
    Ms. Gunasekara. It's about abiding----
    Ms. Tlaib. Thank you. Yes or no.
    Ms. Gunasekara [continuing]. By the requirements of the----
    Ms. Tlaib. I'm sorry. Yes or no, ma'am.
    Ms. Gunasekara [continuing]. Clean Air Act.
    Ms. Tlaib. You will be paid no matter what.
    Ms. Tlaib. Yes, Mr.--Reverend?
    Mr. Comer. I don't----
    Ms. Gunasekara. Nobody's paying me here today.
    Ms. Tlaib. No, no, no. I mean, I'm talking about her 
salary.
    Mr. Comer. OK.
    Ms. Tlaib. No, what she--her organization, no matter how 
long her answer is.
    Yes?
    Rev. Hescox. The answer--yes.
    Ms. Tlaib. Yes. So, it's driven by corporations trying to 
repeal something that protects our public health.
    You know I represent a frontline community, where 48217 is 
the most polluted ZIP Code in the state of Michigan.
    When I go to a school, I ask the kids--because the kids 
always ask, well, what do you do, and how much do you get paid? 
And they ask, are you married? It's so cute. And they're second 
and third graders, right?
    One of the things I tell them is about the fact that, you 
know, when I was a kid, I'd go into a restaurant and they'd 
say, ``How many people?'', but they'd also say, ``Smoking or 
nonsmoking section?'' And the kids are just like, ``What?'' And 
I'd say, ``People used to smoke in the airplanes, at the 
hospitals.'' And the kids would just, like, go, ``No way.'' And 
then I'd say to them, ``So, my job is to protect the air. How 
many of you have asthma?'' And a third of the class will raise 
their hand.
    Do you know, in the city of Detroit, one of the Nation's 
highest rates of asthma, which alone causes, do you know, 1,700 
days of missed school? That it's connected, that kids can't 
learn if they can't breathe clean air?
    Did you know that, Ms. Toney?
    Ms. Toney. Yes.
    Ms. Tlaib. How about you, Ms. Huffling?
    Ms. Huffling. Yes.
    Ms. Tlaib. How about you?
    Ms. Gunasekara. Yes.
    Ms. Tlaib. How about you, Reverend?
    Rev. Hescox. Absolutely.
    Ms. Tlaib. Yes. You know, truth matters. It really does. 
And I really want to center around, like, the facts and the 
truth. It's working. Kids need to breathe clean air so they can 
go to school. It is working.
    And, yes, what the driving force is, you know, is around, 
you know, corporate greed.
    And, you know, Ms. Toney, can you talk about--and I think 
it's really important--about frontline communities? We are 
doing nothing about this. Do jobs fix cancer? Do they fix 
asthma? When the economy is doing well, does that translate 
into better air quality?
    You know, explain to me this correlation. Because I feel 
like--and then, Reverend, you and I may not agree on style or 
approach, but today I'm a mother, not a Democrat or a 
Republican or a Congresswoman. I'm a mother first and foremost, 
and these are our babies.
    So, talk a little bit about, Ms. Toney, how do we address 
this in a way that people understand? It's not like we can go 
and pump out clean air. This is all we got.
    Ms. Toney. Yes. Thank you for that.
    And mother to mother, it's hard to make that decision. 
Unfortunately, there are mothers that are black and brown and 
live in poor communities across this country that are not in a 
position where they can make that decision.
    We were in Houston, Texas, with our moms there not long 
ago, where we know mothers that live right next-door to air 
pollution have to go outside and make a decision, based upon 
just a look, to determine whether or not they can take their 
children to T-ball practice, whether or not they're going have 
to spend money going to a hospital to respond to an asthma 
attack or if they go to work, knowing full well that if they do 
not go to work, they do not eat, and there's no one to take 
care of their children. These decisions are hard.
    So, you're absolutely right. When something is working, 
there's no need to change or try to fix it. And this is 
working.
    Ms. Tlaib. And that's the thing about moms; we just want to 
fix it. And we understand the urgency of it, right? It's not 
like years we can get back for our kids.
    I'm going to end with a quote from one of my residents. It 
was in the Detroit Metro Times, and she was quoted. Her name is 
Carmen Garrison, who avoids going outdoors because of the air. 
She truly believes the air is poisoning her, and let me tell 
you why. Because she says, quote, ``As a kid, she often threw 
up and had a headache after walking to school in southwest 
Detroit,'' where I grew up. ``And more than three decades 
later, as an adult, her eyes burn, her throat hurts, and her 
nose runs if she's even taking a short stroll down the road.''
    Those are real human impacts. And I think we need to 
connect that to the fact that it really does impact people's 
quality of life.
    And I so thank you, especially the moms out there, that, 
really, it's one where we all come together. No matter our 
backgrounds or even our ethnic backgrounds or our income 
backgrounds, I think we understand the importance of protecting 
our children's future. Thank you so much.
    I'd like to recognize Congressman Gosar for five minutes.
    Mr. Gosar. I thank the chairwoman.
    Ms. Gunasekara, got a quick question for you. Now, there's 
been criticism that certain stakeholder groups, including the 
utility industry, has not been supportive of the proposed rule. 
Can you speak to that?
    Ms. Gunasekara. Yes. Certainly. The utility issue is one 
voice of the many stakeholders and regulated community that are 
impacted by the MATS rule. And so it just goes to show that no 
one entity has an especially prevalent voice in the way that 
EPA makes its decisions.
    And, in fact, there was a question, where was the criticism 
coming from? It was actually coming from a lot of the state 
environmental directors because of the relative problems, and 
they see the dangerous precedents for putting the regulatory 
body in a position where you could justify a regulatory action 
regardless of cost. Because the reality is that a lot of those 
costs of implementation fall to the states. And that's where 
the predominant source of concern with MATS and the last 
administration's response to Michigan came from.
    Mr. Gosar. So, now, collateral sources, I want to know a 
little bit more about this. So, we're talking about air 
quality.
    Ms. Gunasekara. Uh-huh.
    Mr. Gosar. And air's not stagnant, is it?
    Ms. Gunasekara. Right.
    Mr. Gosar. It moves. There are air currents. Isn't that 
true?
    Ms. Gunasekara. Yes.
    Mr. Gosar. OK, so--and, you know, I agree, we've got 
problems, and there's problems with heavy metals, mercury being 
one of those.
    So, Reverend Hescox, you made the comment that everything 
should be done. Have you issued and identified support for 
forest management? Because you do know why I'm asking this 
question; because one of the highest realms of toxic metals is 
catastrophic wildfire.
    Rev. Hescox. Absolutely. In fact, I've worked with Senator 
Daines in that office right now, as a matter of fact, on his 
work.
    And, by the way, most of the mercury that is redeposited 
from wildfires originally came from--deposited from coal 
plants. So,----
    Mr. Gosar. No, no, no, no.
    Rev. Hescox. Yes, it is, sir.
    Mr. Gosar. No, it is not. It's a natural-occurring element 
in the crust of this earth. That's just the facts.
    Rev. Hescox. Well, it is a fact, but most of it from the 
United States has been redeposited from burning of coal. And I 
have the scientific studies to prove it, sir.
    Mr. Gosar. It's all part of the crust of this earth.
    Rev. Hescox. I'm a geologist, sir, and I disagree with you.
    Mr. Gosar. And volcanic action? Please tell me how that----
    Rev. Hescox. It comes from volcanic ash too, but----
    Mr. Gosar. Yes.
    Ms. Huffling, have you actually filed support for forest 
management to get rid of catastrophic wildfires?
    Ms. Huffling. Many of the nurses that we work with are in 
areas that have been impacted by wildfires. We haven't 
submitted comments directly related to that, but we've 
definitely been working on these issues.
    Mr. Gosar. So, I would take that as a ``yes.''
    Ms. Huffling. Uh-huh.
    Mr. Gosar. OK.
    How about you, Ms. Toney?
    Ms. Toney. Many of our mothers, as well, are located in 
places that are impacted by wildfires. And this is an issue 
that is of great concern to us, and we are looking at ways that 
we can potentially be engaged.
    Mr. Gosar. So, like, forest management would be a great 
opportunity to mitigate this, would it not?
    Ms. Toney. We do not disagree that forest management is 
something that is necessary. However, that does not negate in 
any way the responsibility of industry in the United States.
    Mr. Gosar. Well, I want to come back to that.
    Ms. Gunasekara, so they're not fudging on this aspect. 
They're adhering to the same rule. Is that true?
    Ms. Gunasekara. Absolutely. And I think to the point that 
the truth matters, the truth in this instance is that this 
administration isn't proposing any changes to the standard. 
There will be no impact to the existing protections that were 
put in place by the 2012 rule under the newly proposed rule. It 
will simply fix a dishonest and inappropriate accounting 
mechanism.
    Mr. Gosar. So, basically, and I've always said, good 
process builds good policy builds good politics. True?
    Ms. Gunasekara. True.
    Mr. Gosar. Well, and then that's part of the problem here, 
is the policy's not built on good process. That's what I'm 
taking.
    Ms. Gunasekara. Well, absolutely, I would say, and this is 
especially true in the regulatory landscape. You want to talk 
about the veracity and credibility of the Administrative 
Procedure Act. Setting up some cost-benefit mechanism that 
always skews what the outcome is going to be, that undermines 
the potential credibility there.
    So, the process, especially for regulatory agencies, it's 
how they make their decisions and come to final outcomes. So, 
protecting that is especially important.
    Mr. Gosar. So, it's a process of peer review so that you 
actually have a denounced way of ascertaining balance. Or what 
you say you do at the front end is what you get at the back 
end. True?
    Ms. Gunasekara. Yes. There's an element--yes. Exactly.
    Mr. Gosar. OK.
    Well, I definitely want to see, Reverend, your support 
letter for catastrophic wildfire and forest management, because 
that's a big deal. That's a huge deal.
    Rev. Hescox. I absolutely agree. That's why I believe in 
forest management and working on it.
    I can also show you the studies on where the mercury comes 
from. So, I'll be happy to send those to you in the coming 
week.
    Mr. Gosar. Oh, I--my dad's a geologist--love it. I would 
absolutely----
    Rev. Hescox. Yes. Well, I have a Ph.D. geologist behind me 
too, so we're both in good company.
    Ms. Tlaib. Thank you so much.
    I'd like to thank all of our witnesses for testifying 
today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions.
    It sounds like there have been some requests that you--and 
then we ask all of you to please respond as promptly as you are 
able to.
    Ms. Tlaib. This hearing is adjourned.
    [Whereupon, at 3:52 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
